<html>
<title> - [H.A.S.C. No. 111-152]INDEPENDENT PANEL'S ASSESSMENT OF THE QUADRENNIAL DEFENSE REVIEW</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-152]

    INDEPENDENT PANEL'S ASSESSMENT OF THE QUADRENNIAL DEFENSE REVIEW

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 15, 2010



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE
58-334                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                     Paul Arcangeli, Staff Director
                 Mark Lewis, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, April 15, 2010, Independent Panel's Assessment of the 
  Quadrennial Defense Review.....................................     1

Appendix:

Thursday, April 15, 2010.........................................    31
                              ----------                              

                        THURSDAY, APRIL 15, 2010
    INDEPENDENT PANEL'S ASSESSMENT OF THE QUADRENNIAL DEFENSE REVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Hadley, Hon. Stephen J., Co-Chairman, Quadrennial Defense Review 
  Independent Panel, United States Institute for Peace...........     6
Perry, Hon. William J., Co-Chairman, Quadrennial Defense Review 
  Independent Panel, United States Institute for Peace...........     4

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    35
    Perry, Hon. William J., joint with Hon. Stephen J. Hadley....    42

Documents Submitted for the Record:

    Joint Statement for the Record of Jim Talent and Eric 
      Edelman, Members, Quadrennial Defense Review Independent 
      Panel......................................................    51

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    57
    Mr. Lamborn..................................................    58
    Mr. Ortiz....................................................    57
 
    INDEPENDENT PANEL'S ASSESSMENT OF THE QUADRENNIAL DEFENSE REVIEW

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 15, 2010.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, welcome to the House 
Armed Services Committee. We today receive testimony from co-
chairmen of the Independent Panel reviewing the 2010 
Quadrennial Defense Review [QDR].
    Joining us today as witnesses are the Honorable William J. 
Perry, Honorable Stephen J. Hadley. And, gentlemen, we welcome 
you.
    And I see other members of the panel seated behind you, and 
thank you all for your efforts. And we welcome you.
    This is the third QDR oversight-related event our committee 
has held. The first event was a full committee hearing on the 
QDR on February the 4th. A second was a classified briefing 
held on March 24th.
    When Congress created the independent panel in the Fiscal 
Year 2007 National Defense Authorization Act, it was charged 
with conducting an assessment of the QDR, presenting its 
findings to Congress.
    Last year, we expanded the panel by adding eight additional 
members appointed by the chairman and ranking members of the 
House and Senate Armed Services Committee. We also expanded the 
report requirement to our--to the panel.
    I see the members appointed by the House are in the 
audience today. Let me take a moment to recognize them, if I 
may. Retired Army General Major General Bob Scales, Dr. Richard 
Kohn, Senator James Talent, and Ambassador Eric Edelman, thank 
you, gentlemen, for your service.
    Reporting the QDR is important. We use it to help us 
understand how the Department [of Defense] sees future security 
challenges. We use it to understand how the Department thinks 
it will meet those challenges. Then we consider whether we 
agree or disagree.
    When we disagree and decide to exercise our constitutional 
prerogative in the authorization process, we want to be sure 
that we understand the impact of our decision.
    The QDR is a monumental task, and Secretary Gates did a 
good job in leading it. As I have said before, and I will say 
it again, that the report is a solid product and superior to 
the last several iterations, but I have also voiced some 
concern about it. An independent bipartisan review is an 
important process of this assessment. It builds confidence in 
the objectivity and comprehensiveness of the Department's 
proceedings and findings for our recommendations. It helps 
illustrate the potential flaws. For example, it is not clear to 
me that this report, like the ones before it, fully answers 
questions that Congress has asked. I am not sure if some of the 
answers are complete. That is where your panel comes in.
    We need another set of experts to take a look at it, offer 
us their best judgment. That is why we were so specific about 
what input we need from you.
    I understand the Department has experienced considerable 
delay in getting your panel put together. Not your fault, but 
unfortunately, you are not going as far along in the process as 
we would like you to be. Nevertheless, we hope that you are 
ready to give us some of your initial thoughts. I am 
particularly interested in your assessment of the basis upon 
which the Secretary of Defense built the effort. Were the 
assumptions reasonable? Did the guidance in terms of reference 
form? But most important, we need your assessment of the QDR's 
force sizing construct and the force structure. We need 
alternates, as well. And an important part of our role is 
understanding the difference in risk and cost present in each 
option.
    I was a bit surprised to see the QDR's force structure 
recommendation remain largely unchanged from its present form, 
so I am particularly interested in hearing your thoughts. We 
welcome you. We appreciate you being with us. Now I turn to the 
ranking member, my friend, the gentleman from California, Mr. 
McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Welcome to our witnesses, co-chairs Perry and Hadley. And 
thank you for being here this morning.
    While I know that the independent panel has only recently 
begun its work in earnest, I understand that the panel is 
familiar enough with the document and underlying analysis to 
make initial findings. We look forward to your testimony today, 
and thank you for agreeing to serve as panel co-chairs. You 
have given a lot to your country, and we appreciate that and 
appreciate your willingness to serve in this position.
    Let me also take a moment to thank the other panel members 
in attendance. In particular, I would like to thank my 
appointees to the panel, Ambassador Edelman and Senator Talent, 
for agreeing to sit on the panel and for being here today.
    This committee understands the strategic significance of 
the Quadrennial Defense Review, or QDR. After all, this is the 
third committee event addressing the 2010 QDR in 3 months. Yet 
it seems to me this QDR failed to deliver on arguably the three 
most important functions of a QDR.
    First, this QDR appears to be a budget-constrained, rather 
than a budget-neutral analysis into the capabilities the 
Department needs for the future. Second, this QDR failed to 
outline a defense program that looks out 20 years as required 
by the statute. Third, the QDR report recommends that the 
United States essentially maintain our present force structure 
for the Future Years Defense Plan [FYDP] and does not recommend 
a force structure beyond the FYDP.
    In our March 29th letter to today's witnesses, Chairman 
Skelton and I asked the panel co-chairs to address these three 
concerns in today's hearing. Your prepared statement addressed 
these issues in part, and I hope that we can discuss your 
perspective in detail over the course of the hearing.
    This QDR did not emerge out of a vacuum. For some time now, 
Secretary Gates has been pushing for balance in the Defense 
Department in an effort to focus the Pentagon on prevailing in 
the conflicts of today.
    In the Secretary's introduction to the QDR--the 2010 QDR--
he writes that his efforts to rebalance the Department in 2010 
continued in the fiscal year 2011 budget and were 
institutionalized in this QDR and our out-year budget plan.
    While the balance initiative may have been appropriate for 
the 2010 or 2011 defense budget, efforts to make balance a 
fixture in the QDR is short-sighted and puts the Department on 
the wrong path for the next 20 years.
    Choosing to win in Iraq and Afghanistan should not mean our 
country must also choose to assume additional risk in the 
national defense challenges of today and tomorrow. In my view, 
the QDR understates the requirements to deter and defeat 
challenges from state actors, and it overestimates the 
capabilities of the force the Department would build.
    This QDR does an excellent job of delineating the threat 
posed by those anti-access capabilities, notably China, but 
does little to address the risk resulting from the gaps in 
funding, capability, and force structure. As a result, we find 
a QDR that basically reinforced the status quo, despite serious 
threats to our current capability.
    Thus, this QDR provides a force structure that is built for 
the wars we are in today when the purpose of the review is 
exactly the opposite, to prepare for the likely conflicts of 
tomorrow. I encourage the panel to ask, what is new here?
    If this is really a vision for the defense program for the 
next 20 years, as the statute requires, then why does the QDR 
lay out a force structure for the next 5 years, not to mention 
that looks a lot like today's force? The QDR is supposed to 
shape the Department for 2029, not describe the Pentagon in 
2009.
    I suspect part of the problem is that the 2010 QDR lacks 
strategic guidance. This report was delivered before the 
administration issued its national security strategy and had to 
rely on a 2-year-old national defense strategy from the 
previous administration.
    The QDR raises many more questions raising--ranging from 
strengthening the industrial base to how we balance risk. I 
hope we can cover these issues in this hearing and future 
sessions. I look forward to the QDR's independent panel 
reviewing the assumptions underlying the QDR's decisions and 
providing the Congress with an alternative view on how the 
Department should posture itself for the next 20 years.
    Once again, I thank you all for being here today, and I 
look forward to your testimony. I yield back, Mr. Chairman.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 35.]
    The Chairman. I thank the gentleman very much.
    To our witnesses, I understand that you are presenting one 
joint witness statement for the record, but each of you will 
have some remarks to make. Am I correct?
    Dr. Perry. Correct.
    The Chairman. Dr. Perry, you are recognized.

 STATEMENT OF HON. WILLIAM J. PERRY, CO-CHAIRMAN, QUADRENNIAL 
 DEFENSE REVIEW INDEPENDENT PANEL, UNITED STATES INSTITUTE FOR 
                             PEACE

    Dr. Perry. Thank you, Mr. Chairman.
    So we are submitting this written statement for the record. 
I do not plan to read the statement to you.
    The Chairman. Well, without objection, it will be spread 
upon the record.
    Dr. Perry. I would like to call your attention to how we, 
in fact, organized the panel, as presented to you in that 
statement. We created five subpanels, which reflect our view of 
the five important issues. The first one was the nature of 21st 
century conflict. The second was whole-of-government 
capabilities. Third one has to do with force structure and 
personnel, the fourth with acquisition and contracting. And the 
last one looks at the QDR as a process.
    I want to start my comments with a caveat, namely that the 
commission has only been in operation for 2 months. In fact, 
many of our members were sworn in only a month ago, and two 
members will be sworn in only tomorrow.
    So our written testimony is quite incomplete. It should be 
thought of as a status report and no more.
    I would like to add, however, to the written statement by 
sharing with you some of my personal observations. This goes 
farther than the commission is prepared to go at this time, so 
I am speaking only for myself.
    And I am drawing on my experience as a Secretary of 
Defense. And I must say, that experience did not include 
preparing a QDR. We had something which we called a bottom-up 
review, which we prepared in 1993. And I had extensive 
experience in preparing that bottom-up review. It was prepared 
in the first 6 months in the Clinton administration.
    It took the existing defense strategy, which was the 
Defense Department should be able to simultaneously conduct two 
major regional contingencies. It took the budget guidance from 
the President and then examined whether that strategy could be 
met with the existing force structure and the existing budget 
guidance.
    Our answer, by the way, was, no, it could not be met by 
that. We concluded what could be done was what we called one-
and-a-half major regional conflicts. That is, we could win the 
first one, hold on the second one, and then go back finally and 
win on the second one.
    That study was very useful, because it gave us a dose of 
reality, and it also provided a very important basis for 
planning improvements in the force structure. In particular, it 
led immediately to a set of programs to increase our capability 
in both airlift and sealift.
    Now, fast-forward to 2009. Congress is now calling for a 
much more ambitious study than we did in the bottom-up review. 
You want a full-blown strategy looking ahead 20 years informed 
by, but not constrained by, budget planning. And then you ask 
whether the force structure needs changed to comply with that 
strategy.
    So a reasonable question to ask is, does the QDR do that? 
In my judgment, the QDR is a very useful document, but it does 
not do that. In fact, it is probably not possible--or not 
possible for the--for the administration to do that under the 
real constraints under which they were operating.
    And what are some of those constraints and how do they 
affect what you would like to have out of a QDR? First of all, 
as already has been pointed out, and as you all are very much 
aware, we are fighting two wars now, and the Secretary of 
Defense, in my judgment rightly, has put the top priority on 
determining what adjustments are needed to ensure success in 
those two wars.
    Steve Hadley will say more about that in his testimony, why 
that is a necessary thing to do.
    And, secondly, the Office of the Secretary of Defense was 
not fully staffed during the course of the QDR. Many important 
senior positions were not filled, in fact, until 6 to 9 months 
after the beginning of the administration.
    One important input to the QDR--namely the Nuclear Posture 
Review--was only completed last week, so obviously was not a 
useful input to the QDR.
    Another important input, which is the work underway to 
reduce--for reducing costs and schedule acquisition 
contracting--is still a work in process. And in the QDR, there 
was no significant consideration of how to control health care 
costs. And as you are well aware, health care is a very 
important part of the budget, and it is a component of the 
budget which is growing inexorably, it seems, 6 percent a year.
    Considering these facts of life limitations, I think I 
believe that the QDR was very well executed and will be very 
useful, but it does not answer the question which we just--
which I just described to you. It does provide a reality force 
check on the force structure for doing two ongoing wars and it 
provides important insights and budget adjustments as to what 
an additional force structure might be needed for other 
contingencies. In fact, it conducted a very extensive set of 
scenario planning to look at excursions beyond the wars we are 
now fighting.
    It should not, in my judgment, be regarded as the final 
word. I think you should look at it as a living document and as 
part of an ongoing--part of ongoing studies. The important 
ongoing studies, some of which are ongoing now and some of 
which should be underway, is, first of all, determining the 
imputed cost of the equipment wear and tear of the wars now 
going on--two wars now going on in Iraq and Afghanistan.
    We are wearing out and, in some cases, destroying our 
equipment at a very fast rate, and that is building up a due 
bill, which is going to affect future budgets in a very 
important way. We need to have a good assessment of how that is 
going to be--how that is going to affect future planning and 
future budgets.
    Secondly, we do really need options for how to control the 
spiraling health care costs, as they are assuming a greater and 
greater portion of the budget. We need options for how to 
decrease the cost and the time involved in acquisition 
programs. We need adjustments in the budget process from moving 
to this all-government approach to dealing with contingencies 
like Afghanistan and Iraq. The QDR clearly spells out the need 
for doing that, but it does not spell out the details of what 
that actually involves.
    And, finally, I believe we need a long-term 20-year study 
directed to the kind of issues which the Congress asked for in 
the QDR. I see this as a separate study or a follow-on study to 
the QDR, which would be taken on in the year after the QDR is 
submitted.
    Mr. Chairman, those are my personal comments on my 
reflections on reading the QDR. And I offer them to you for 
whatever they may be worth. Thank you.
    [The joint prepared statement of Dr. Perry and Mr. Hadley 
can be found in the Appendix on page 42.]
    The Chairman. Thank you so much, Dr. Perry. Good to see 
you, sir.
    Mr. Hadley, welcome.

 STATEMENT OF HON. STEPHEN J. HADLEY, CO-CHAIRMAN, QUADRENNIAL 
 DEFENSE REVIEW INDEPENDENT PANEL, UNITED STATES INSTITUTE FOR 
                             PEACE

    Mr. Hadley. Thank you, Mr. Chairman. I endorse very much 
what Secretary Perry has said. I will add a few comments of my 
own to address--include addressing some of the preliminary 
concerns we have heard come from this committee. These views 
are my own, but I do believe that they are shared by many 
members of the QDR independent panel.
    Let me say that we are very much in the preliminary stages 
of our work. I think if you look at our submitted joint 
statement pages 3 and 4, as we outlined the scope of the five 
subpanels, hopefully you will find in that outline the 
questions that need to be addressed and that are specified in 
statute and that we have heard from this committee.
    And to the extent there are things that are missing, we 
will want to add those so that the subpanel work is going to 
address what you believe needs to be addressed.
    Let me say, secondly, that we have had excellent 
cooperation from the Department of Defense [DOD] in our initial 
efforts to understand the QDR process and what the review 
produced. Secretary Gates has personally been very supportive 
of our effort. And a lot of effort went in to the QDR review, 
and it produced some very good work and some very sound 
recommendations. And those involved should feel good about what 
they have produced.
    In particular, the QDR makes taking care of our men and 
women in uniform and their families a top priority. This is 
very welcome to the panel, and I am sure will be very 
appreciated by everyone in uniform.
    As Secretary Perry noted, the QDR makes prevailing in 
today's wars the first of its four priority objectives. I 
believe that is the right thing to do. Prevailing in today's 
wars will also contribute to two of the other priority 
objectives of the QDR. It will help to prevent and deter 
conflict, just as surely as losing those wars is likely to 
invite conflict.
    And prevailing in today's wars will also help our military 
prepare to defeat adversaries and succeed in a wide range of 
contingencies, the third of the priority objectives, since many 
of those contingencies will require the very skills that our 
military is learning in these current conflicts.
    Indeed, one area of focus of our panel's work will be 
whether the Department and our military are doing enough to 
institutionalize in our conventional forces the lessons we have 
learned from those wars. Prevailing in today's wars must not be 
at the expense of a military that is prepared for the full 
spectrum of potential military operations.
    But our Nation cannot afford to have to relearn again at 
some future time the skills that our military has and will 
acquire in prevailing in our current conflicts.
    Secretary Perry noted in his comments, it is clear from our 
work so far that the DOD acquisition and contracting systems 
are not geared adequately to ensuring that our Nation's 
military forces both prevail in today's wars and succeed in the 
range of contingencies that they are facing or could face. And 
that is one of the reasons why it will be an area of focus for 
our work.
    We had some witnesses who said the acquisition system does 
not work for those folks involved in counterinsurgency 
operations. We had some other people say the acquisition system 
doesn't work for those people worried about high-end 
activities, anti-access and the like, and we came away 
wondering, for who does the acquisition process actually work? 
And that is something we have to get to the bottom of.
    Secretary Perry mentioned about the need to preserve and 
strengthen the all-volunteer force. It is a--it is a wonderful 
national asset. But we have got to control costs if we will be 
able to both preserve and strengthen that force and still have 
the money we need for procurement and operational spending. 
Again, this will be another focus for our work.
    We will also assess efforts to create an effective civilian 
expeditionary capability that can serve as a partner of our 
military in meeting the stabilization and institution-building 
challenges of post-conflict states, countries like Iraq and 
Afghanistan and also failed and failing states.
    Over the last 40 years, our Nation has invested enormous 
effort and trillions of dollars in recruiting, training, 
exercise, deploying, fighting, and improving our Nation's 
military. It is simply the finest in the world.
    But we have made nothing like that effort to recruit, 
train, exercise, deploy, and improve a civilian capability to 
partner with our military in meeting the challenges our Nation 
faces overseas. This has got to change. We will also be 
addressing that issue.
    Finally, let me--to respond in a preliminary way to two 
concerns that we have heard from this committee. First, was the 
QDR a budget-constrained exercise? My tentative assessment is 
yes, in the sense that the QDR was developed in parallel with 
the fiscal year 2011 defense budget, so that the QDR would not 
be a pipe dream unsupported by real financial resources.
    While fiscally responsible, this approach may have limited 
more ambitious questioning of assumptions and out-of-the-box 
thinking because basic budget and end-strength assumptions were 
not challenged.
    Second, does this mean that the QDR is too constrained by 
current budget realities, existing force structure, and near-
term thinking? I think there is a risk here, and the panel will 
be intent to pursuing this question.
    I want to note on the positive side, however, that the 
Defense Department does seem, as Secretary Perry suggested, to 
view the QDR as only a step in a broader process of adapting to 
the challenges of the next 20 years. Secretary Gates is 
reported to have given directional guidance to the Department 
out past the future year defense plan and to have tasked 
follow-on work to address longer-term issues identified in the 
QDR process, including application of the force sizing 
construct to the 2028 timeframe.
    These are important things, if true, and the QDR panel 
plans to assess the QDR in this broader context and also to 
consider recommendations on how to enhance the process, as 
Secretary Perry suggested.
    Finally, Mr. Chairman, if I may, I would like to ask that 
the statement offered by former Senator Talent and former Under 
Secretary of Defense Edelman be included in the record of this 
hearing. And I have a copy of it here.
    The Chairman. Without objection, thank you.
    [The information referred to can be found in the Appendix 
on page 51.]
    Mr. Hadley. Thank you, Mr. Chairman.
    [The joint prepared statement of Mr. Hadley and Dr. Perry 
can be found in the Appendix on page 42.]
    The Chairman. Thank you.
    Dr. Perry. Mr. Chairman, could I add one more comment?
    The Chairman. You bet, Doctor.
    Dr. Perry. I just wanted to say that I am fully supportive 
of all of the points Mr. Hadley just made. And then more 
generally, Mr. Hadley and I are intended to co-chair this 
committee not just as a bipartisan committee, which you 
established it as, but as a nonpartisan committee, which I 
think is appropriate for the gravity of the issues we are now 
looking at. Thank you.
    The Chairman. Thank you. As has been noted by other members 
of this committee, we feel we are extremely bipartisan and 
often nonpartisan in the efforts that we do. And a great deal 
of credit goes to my ranking member, as well as all people on 
all sides of the aisle in this committee.
    Let me start with one question, if I may. And thank you 
both, and appreciate the members behind you, who are members of 
the panel.
    I had an interesting conversation with the Army chief of 
staff a good number of months ago about the preparation and 
training of our soldiers. And he used the phrase a ``full 
spectrum of operations.'' And my immediate remark was, 
``General, you have two problems. Number one is time, and the 
other is money.''
    Is this attempt to have soldiers trained for a full 
spectrum--in other words, being successful in defending the 
Fulda Gap with tanks and all of the heavy fighting that could 
go on there, and on the other hand, the very individual-
oriented anti-insurgency type of warfare?
    What do you make of this? I have trouble getting my arms 
around it, because the types of conflict that I just described 
are so varied that I wonder if this is truly a reality.
    Doctor.
    Dr. Perry. My own view on that, Mr. Chairman, is that 
soldiers, sailors, and Marines ought to be generally trained 
for full-spectrum combat, but on any particular combat they are 
assigned to, they need specialized training for that purpose.
    When we sent the 1st Armored Division into Bosnia, for 
example, in 1996, this is a--as the name implies, it was 
prepared for a full-scale war in Germany, which is where they 
were based. That was the--that was their fundamental training.
    Therefore, we had to take 2 or 3 weeks of specialized 
training to prepare them for the particular kind of combat they 
would face in Bosnia, which was very different from that.
    When they finished that exercise and returned to Germany, I 
asked General Nash, who was the commander, how long will it 
take before we can get your division back to performing its 
mission in Germany? And its answer was ``3 or 4 weeks of 
specialized training.''
    So what I would suggest is that our troops are broadly 
trained, very capable troops, but they need specific training 
for the specific missions they are going--they are going to 
face. And some--and at least the experience we have had in the 
past is that specific training can be made in a matter of 
weeks, not in the matter of months.
    The Chairman. It seems to me, though, there would be some 
emergencies where you wouldn't have but maybe a day or two. Mr. 
Hadley, what are your thoughts, full-spectrum training?
    Mr. Hadley. I think one of the things we have to ask full-
spectrum training, in light of the challenges that they are 
likely to face over the next 20 years, which I do think is why 
it is important to make sure that we have that assessment of 
what the world looks like 20 years out and what we are likely 
to use our military for.
    And that ought to, in some sense, define the definition of 
full-spectrum. But I think Secretary Perry has it right, and I 
think there is also an acquisition piece of this, which is, we 
have got to have hardware. The days of single-purpose hardware 
ought to be very limited, and we need hardware and capabilities 
that are flexible and can help our troops respond to a variety 
of challenges.
    The Chairman. Now, the purpose of the QDR is to determine 
and express the defense strategy in our country and 
establishing the defense program for the next 20 years. What 
are your initial reactions as to how well the QDR has met that 
task, Dr. Perry?
    Dr. Perry. I think they have done an excellent job in 
preparing it for the near term, in particular preparing it for 
the two wars we are now fighting. As I indicated in my earlier 
testimony, I do not believe that they have taken full 
consideration of the strategies and the threats they might face 
over a 20-year time period. And I think that should be a basis 
of a future study sometime done perhaps during the next year.
    The Chairman. Mr. Hadley.
    Mr. Hadley. I agree with that. I do think it is very 
distressing to look--with any confidence--we are going to be 
building hardware that is going to be out there 30 and 40 
years. I think it is an exercise we have to do, but I think it 
is an exercise we have to undertake with a lot of humility, 
because 20 years is a long time to look out with any certainty 
in a very uncertain and changing and volatile world.
    The Chairman. The committee has heard me mention on several 
occasions that, since 1977, we have had--we have been involved 
with 12 conflicts involving our military. Some were of major 
approach, and others not so. But I suppose when you are being 
shot at, it is a big war, regardless of whether you are being 
shot at by one person or a whole battalion.
    The question I put to you about being able to do the full-
spectrum really bothers me, and I know you think that a soldier 
can be trained to do something other than his main occupation 
in the military in 3 weeks or so. We should explore that a 
little bit more in your final determination. It really does 
worry me that we have found ourselves in the horns of a dilemma 
with fantastically trained troops to do one thing, and they be 
thrown into another situation where they would be very, very 
unfamiliar.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. And thank you for your 
comments about our bipartisanship and our nonpartisanship. And 
that is, again, I think, because of the tone that you set with 
the committee.
    And I appreciate your remarks, Secretary Perry, about your 
efforts being nonpartisan. I think this is way too important to 
get caught up in partisanship, and I really appreciate your 
opening comments there.
    And it--and it was interesting of your experience with the 
bottom-up review that you outlined and the experience you had 
there, that we should prepare for two wars and we were prepared 
for one-and-a-half. I think that was an important undertaking. 
I think you faced it realistically.
    That is one of the concerns I have with this QDR. As I read 
the law that we passed in the 1997 reauthorization act--and I 
am going to quote from it--``The QDR should be done every 4 
years, a comprehensive examination of the national defense 
strategy, force structure, force modernization plans, 
infrastructure, budget plan, and other elements of the defense 
program and policies of the United States with a view toward 
determining and expressing the defense strategy of the United 
States and establishing a defense program for the next 20 
years.''
    I think, as you outlined in your opening comments, maybe we 
have asked something that is a step too far, given a new 
administration, a new budgeting, and maybe we need to step back 
a little bit and look at this and come at it more 
realistically, and--but that is the law that we are dealing 
with right now.
    And I think, as you--as you stated, maybe that we should do 
another more comprehensive study for the 2 years out. And as 
Mr. Hadley just stated, we should do that, I think, with grave 
humility.
    If we look back 20 years and see what we were thinking 
about for where we would be right now, we would probably find 
ourselves inadequately prepared. And when we look out the next 
20 years, I can see where we could be very nervous about what--
about how firmly we make those commitments.
    But at the same time, we have to, as you said, buy hardware 
that we are going to be using in 20 years. In fact, if you look 
back at the B-52, we may be using it for 40, 50, 60, 70 years.
    This is a very serious undertaking. As you comment on these 
things, I would also hope that you would, if they so desire, 
other members of the panel sitting behind you, you might be 
able to let them give some comments of how they feel, too. I 
appreciate how you have--how you are really dealing with this 
nonpartisanly and bringing the whole committee to bear on--your 
whole committee to bear on this.
    I take it that you are probably in agreement that we 
should--that the QDR is lacking in the--in the 20-year outlook, 
that--and they agree on that, I think. They said that they are 
looking out 5 years. In fact, Secretary Gates said anything 
past 5 years is a fantasy, anyway.
    But you do agree that we should do a thorough, as 
comprehensive as we can plan for the next 20 years. Is that 
correct?
    Mr. Hadley. Yes. That is my judgment. You know, you may not 
get it absolutely right 20 years from now, looking back, but 
the process of looking out and doing that planning is important 
to do and to be institutionalized. And I think, as Secretary 
Perry said and as a number of members of our panel have said, 
we need to--and it is really what that fifth subpanel is going 
to look at. Is there another way to do that of which the QDR 
could be a piece of a broader whole?
    And if I might mention one other thing, a number of members 
of our panel made the point that some of the issues like 
acquisition reform and health care and retirement costs are 
recurring themes of QDRs. They get surfaced up every 4 years, 
and then, you know, they recur 4 years later.
    And I think one of the ideas our committee is--our panel is 
thinking about is making what recommendations we can on some of 
these tough recurring issues, but then coming back and 
suggesting perhaps there needs to be a dedicated structure 
where the legislature and the--and the executive branch will 
get together in some panel or forum or blue-ribbon commission 
and see if we can actually make some progress solving these 
things, so 4 years from now, when the next QDR comes out, it 
doesn't come up and we are saying the same things about the 
problem we said in this QDR.
    So we are going to look at some creative ways to try and 
address some of these issues to supplement the QDR process. 
Again, I just put this as something a number of members of the 
panel think we ought to look at, and that will be one of the 
subjects addressed by that fifth subpanel.
    Dr. Perry. Mr. McKeon, I must say, I certainly favor a 
serious look ahead, 20 years ahead, and try and see what the 
threats might be. I do understand, though, that we cannot 
forecast with confidence what the threats will be like 20 years 
from now. And it is going to depend to a very great extent on 
the adaptability, being able to adapt into a situation as they 
arise.
    I want to give you one example of that, which I think is 
quite telling. Thirty years ago, I was the under secretary of 
defense for research and engineering. At that time, we were in 
the middle of the height of the Cold War, faced that threat 
very seriously, and we designed a system called the B-2. It was 
designed to deal with our strategic nuclear deterrence 
capability.
    Well, the B-2 is still with us. And we----
    Mr. McKeon. With 20, instead of 130.
    Dr. Perry. Yes. And we are doing quite--we are doing quite 
different things with it today. We have adapted it so that it 
could be--carry several dozen JDAMs [Joint Direct Attack 
Munition] and to be used in a conventional applications. It 
turns out that, with the ingenuity of the people using it, have 
turned a weapon designed for strategic nuclear capability, one 
set of threats, into the kind of situation we are dealing with 
today. So we do also depend on the adaptability of our best 
policy people and engineers in the Defense Department to adapt 
to new threats as they arise.
    Mr. McKeon. I wish we had the 130. You also mentioned the 
problem that a new administration has using the--building the 
QDR on previous administration's defense strategy. And so it 
probably puts--and then doing that without having your full 
complement of people onboard, so there are lots of stresses.
    One of the--one of the things that has been frustrating for 
me, though, is looking at the QDR, my feeling--my simple 
feeling was, we would get the QDR and then we would get the 
budget and see if we would be able to do the things that are 
necessary to meet the QDR. And I think it kind of happened 
backwards, so I think the budget drove the QDR, and we are left 
kind of without guidance on what kind of weapons we should be 
looking at to buy for the future.
    And should we be seeking more money for the budget, more 
top-line? Because I am concerned with the ongoing budget 
concerns that we have. So I think we--probably, the QDR has 
opened up more questions than it has answered, and I am really 
looking to this panel to really help us, give us more guidance 
as we do move forward.
    So thank you very much for your work.
    The Chairman. I thank the gentleman.
    I hope that in your final report you will take into 
consideration--and I know it will take extra work on your 
behalf--I hope you will take into consideration the thinking 
part, which means professional military education. And I hope 
you will take advantage of the great deal of work that has 
already been done by the Committee on Oversight and 
Investigation, headed by Dr. Snyder.
    I know the transcripts are available to you, and I know a 
report from the series of hearings would be available to you. I 
would appreciate your doing that, because you have the finest 
military in the world. And if you do not have a strategic 
thinking or operational thinking or tactical thinking, 
depending upon the type of conflict that you have, it is all 
for naught. And this is a serious business. And if you do that, 
I would certainly appreciate it.
    We announced previously that we would start with those of 
lesser seniority and work backwards. And this is, of course, 
with the concurrence of Mr. McKeon that we will do just that.
    The first gentleman is Mr. Marshall, according to the 
attendance records that I have. You are on.
    Mr. Marshall. Well, I appreciate the opportunity to be on, 
Mr. Chairman, but since I just got here physically--I have been 
in the anteroom meeting with people on F-35--I think I need--I 
think we need to move to the number-two person.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you very much. Thank you, Mr. Chairman. 
And thank you all for the efforts that you are putting forth, 
as well as the rest of the panel.
    I wanted to just commend you briefly, there were two things 
that you mentioned that I think are really important and trying 
to get a handle on it is tough, I know. The first one is, the 
way that we look at our families and the support system for our 
military and how important that is. I think it represents a 
kind of sea change in a way from when we always felt that, you 
know, perhaps it was an afterthought.
    And the second one, really, is a civilian component and how 
that--how that interfaces and how we need to develop that and 
think about that in a totally different way than we have in the 
past.
    Beyond that, I just wanted to ask you a little bit about 
how you plan to address and assess an important issue that we 
all are very well aware, the personnel issues, health care, 
retirement benefits, all those concerns that need to be 
maintained with an all-volunteer force. Clearly, we can't have 
the ships and the tanks and et cetera to buy when those costs 
are escalating at the rate that we are talking about. How are 
you going to get at that?
    Mr. Hadley. Well, I think we have got a subpanel to do 
that. We have asked initially for a considerable amount of data 
on what the trends have been. Then we are going to have to look 
at what is driving those trends and ask some very hard 
questions.
    And, you know, there--I was thinking about this last night. 
There are huge dilemmas, because, you know, in a normal 
situation, you could look at co-pays and things of this sort, 
but these are for men and women in uniform who we are paying 
their salaries, so you get a little bit of sort of taking out 
of one pocket and having to put it back in another.
    I think they are very challenging, very difficult. There 
are some ideas that members of our panels already have that 
they are looking at, and I think what we need to do is take a 
look at it and see if we can come forward with a set of 
recommendations that we think the Department and the Congress 
should think about.
    I think we are advantaged by one thing in that the QDR 
makes clear that there are some ongoing studies looking about 
the total force, active, Reserve, civilian, contractors, but 
also looking at some of these personnel cost-related issues.
    So we may actually have a vehicle within the Department 
itself that we can contribute some ideas to, because everybody 
recognizes this is the train wreck that is coming in a world of 
deficits and constrained budgets.
    I wish I had a silver bullet for you here. I don't. I think 
it is going to be very tough. If it were easy, it would have 
been solved before. And we are----
    Mrs. Davis [continuing]. Try and tell the witnesses that we 
have who come to us on a variety of those issues that that is 
true, and sometimes when you pose options that we have, people 
do acknowledge it, but it is tough. And we are under a lot of 
pressure, but I am thinking ahead, too. I mean, we are not just 
thinking 5 years, as you say. We are looking really down the 
road, and that is the kind of fiscal commission that we are 
even talking about, when we look at a number of entitlement 
programs.
    I mean, that is really the concern here. And so I 
appreciate that there is no silver bullet, but we want work 
with you to try and understand better how you are going to go 
about that, so that we challenge basic assumptions that you are 
being asked to do all the time.
    Mr. Hadley. And one of the questions people are asking, are 
we encouraging people to leave the service too soon and to get 
in the retirement, when, in fact, there is more work that a 
more flexible system would allow them to contribute either on 
active-duty, Reserve, Guard and Reserve? I mean, we are trying 
to open the aperture and look at a sort of creative approach to 
this thing, rather than just a narrow sort of cost, a green 
eyeshade.
    Mrs. Davis. Thank you. And you mentioned the Guard and 
Reserve. We are having a hearing today, and certainly the 
mission sets that they have to deal with, even in the testimony 
we talked about equipment and the different ways of thinking 
about that than we have in the past. But I think there is a 
reality there that, you know, you just run into a wall when you 
are trying to balance all those needs at one time.
    Dr. Perry. Years ago when I was testifying to the Congress, 
I was asked, what are the three factors which contribute most 
to the quality of our forces? And I said training, training, 
and training.
    And to be clear, though, in order to get the benefit of 
that training in an all-volunteer force, you need people to be 
re-enlisting. And the re-enlistments are determined not so much 
by the soldiers themselves as by their families.
    And, therefore, I concluded that the quality of life that 
we provide for the soldiers and their families is an important 
factor in their re-enlistments. And, therefore, ultimately, 
quality of life leads to quality of force. So those two factors 
are very intimately tied to each other.
    Mrs. Davis. Thank you. As you look forward, as well, 
thinking about math and science professionals is another key 
factor. I know that, as I speak to people in the community, 
because it is national defense, because we have constraints in 
terms of hires, we need to be able to grow our own in this 
area, and we are not doing a very good job.
    And so I would hope that you could also weigh in on this 
issue particularly because we know the long-term needs haven't 
been addressed as well as they should be.
    Thank you very much.
    The Chairman. I thank the gentlelady.
    Mr. Coffman, please.
    Mr. Coffman. Thank you, Mr. Chairman.
    I, first of all, want to express the concern that the 
administration has not risen up to the statutory obligations of 
the Quadrennial Defense Review. And I think, Mr. Hadley, you 
had mentioned that it seemed to focus on near-term threats, 
where certainly the intention of the statute is to project out 
irrespective of resources, and whether or not we can--and to 
send a message to the Congress, certainly, on what needs to be 
done.
    And so it seems like that this Quadrennial Defense Review 
was clearly compromised by the immediate constraints fiscally, 
and I am concerned with that, and I think that--Mr. Perry, I 
think you reflected some of those same concerns, too, in terms 
of the 20-year window.
    I know it is difficult to project out, but how would you 
see--how do you see--the United States has no peer competitors 
today, but China is a rising power, certainly increasing its 
industrial base fairly rapidly, which is enabling it to 
increase its military.
    And so how do you project out to see whether or not this 
QDR counters or is able to counter the rising power of China?
    Mr. Perry, why don't we start with you.
    Dr. Perry. Let me say, first of all, relative to the QDR, 
that had I been the Secretary of Defense, I would have probably 
made the same decisions as Secretary Gates made about what to 
do in this QDR, namely focusing on the 5-year issue, but I 
would also like to follow it on with a longer-term study, which 
could include some of the issues which you were raising the 
question about.
    My own view is that the force structure we have today and 
the force structure we are building, have committed to build 
for the future already, is quite capable of dealing with any 
future military threats which I can envision right now. And I 
would project that out in my own thinking, maybe 10 years or 
so. I just don't think--my thinking isn't good enough to 
forecast what it is going to be like 20 years from now.
    But as I look ahead to the next 10 years or so, I think the 
U.S. forces will be quite capable of dealing with any challenge 
which I can envision in the next 10 years.
    Mr. Coffman. Mr. Hadley.
    Mr. Hadley. I would say two things. One, I think--think of 
it maybe a little bit this way. The questions that you have all 
set out here today and that are in the statute need to be 
addressed.
    The question is, is the QDR the vehicle for addressing all 
of them? Or does the QDR have to be part of a broader system 
and effort whereby these things get addressed? And that is what 
we are trying to look at.
    Secretary Perry talked about maybe before the next QDR, you 
need a sort of 20-year lookout exercise that then informs the 
next QDR. I think we need to look at it almost system-wide.
    Secondly, you know, I think the China issue is this broader 
anti-access area denial kind of issue, and it is not just 
concerns people have about China in the South China Sea. It is 
a question about Iran in terms of gulf, and there are other 
places, as well.
    My sense is that the QDR made a down payment on additional 
capabilities that our military forces need to deal with these 
threats. I think they did really not ask themselves, what is 
the capacity? What is sort of the volume of these capabilities 
you would need in 2028 if you had a serious threat, recognizing 
that threat will mature between now and then?
    I think that is one of the unfinished items as part of the 
QDR. And I would hope it is on Secretary Gates' list of things 
to be looking at as you look out 10, 15 years, and that is one 
of the things we will be talking to him about.
    Mr. Coffman. Thank you both. Just to commend you to look at 
our personnel structure, and this is archaic system that was 
developed, I think, in World War II that doesn't reflect, I 
think, the needs of today and this notion of a 20-year window 
and this up-and-out program. I am glad that you are taking a--
willing to take a look at that. Thank you, Mr. Chairman. I 
yield back.
    The Chairman. I thank the gentleman. Dr. Snyder, please. It 
is your turn. We have been playing the rules backwards.
    Dr. Snyder. Backwards.
    The Chairman. And since you were here on time, why, you are 
up next.
    Dr. Snyder. Thank you. Thank you, Mr. Chairman. I 
appreciate the limitations of our discussion today, given that 
you already haven't done the kind of study that you want. I 
appreciate your public service.
    This issue of--what you all want to do is, is to come out 
with a report that is helpful. And so if it is pie in the sky--
like if you were the republic of Iceland, you said, we need to 
raise a 1.2 million member military, Iceland is not going to do 
that. On the other hand, if you don't push things a little bit, 
then we will say, well, it is not helpful because it doesn't--
you know, we knew that already. So you are kind of--you are 
kind of caught.
    On the other hand, I think there are some--I think this 
kind of discussion is helpful to try to explore, what are those 
boundaries that the American people and the Congress would find 
helpful? I think Mr. McKeon in his opening statement--and I 
don't have it, so I may be quoting it incorrectly, because we 
have talked about this before.
    I think, the discussion was, if you go to war, should you--
you have to go to war, should you incur any additional risk 
elsewhere? Well, I think any military strategist would say, 
``Of course you would.'' If you took a third of your military 
to go to a major conflict, would that result in additional risk 
elsewhere? Of course it would. I mean, if it didn't, it would 
be peculiar. I mean, I just don't see how you can do that.
    So the idea that we would have to have the size of our 
military such that if we wanted any major operation, we would 
incur no additional risk, I think that is pie in the sky. I 
just don't think that life works like that.
    This issue of constrained by the budget, that somehow we 
would not want you to be constrained by the budget, we don't 
operate like that in any other area of human experience, 
certainly not in government.
    I think about the incredible carnage on the highways that 
we as Americans have put up for decades. We lose tens of 
thousands of Americans every year dying on the highway and 
hundreds of thousands of serious injuries. We could 
dramatically, dramatically decrease those number of deaths if 
we all were to put an additional $30,000, $40,000, $50,000 into 
each American automobile, I would think.
    But why don't we do that? Because we recognize the 
realities of the constraints of budget. And so I don't even 
know if I have a question, other than to say you are kind of 
caught in this ongoing discussion that we have every time we do 
this process, which is, we want you to think outside the lines. 
On the other hand, if you get too far outside the lines, we 
will say you're constrained by the realities of any nation's 
budget, resources, geography.
    You take the locations of our bases. There are 
inefficiencies now. These bases were located 40, 50, 60, some 
of them longer years ago than that. If you were starting over, 
we would not place these bases in the United States where they 
are now, but we are not starting over. We are constrained by 
the past, and that is just the way it is.
    So I appreciate your work. I look forward to your final 
report. You are certainly welcome to comment on anything I 
said, but I haven't really formally asked a question, but----
    Mr. McKeon. Would the gentleman yield?
    Dr. Snyder. Sure, yes.
    Mr. McKeon. What I said in my opening statement was, 
``Choosing to win in Iraq and Afghanistan should not mean our 
country must also choose to assume additional risk in the 
national defense challenges of today and tomorrow.''
    What I was getting at was so much balance and focus on the 
next 5 years, I think it is a given that we decide to win in 
Iraq and Afghanistan. I think we are all in agreement on that. 
But that doesn't mean that we shouldn't also be planning out 
for the 20 years. And I think we have agreement on that, that 
this QDR does not address that.
    And I think we need to come back to some way getting a 
study for the 20 years, even though we are also in agreement 
that nobody knows what is going to happen exactly in 10 years. 
Nobody knows exactly what is going to happen tomorrow.
    But the further we get out, the less likely we are to be 
totally correct, but that doesn't mean we don't think about it 
and plan for it and do our best to be prepared for it.
    Dr. Snyder. Any comments you all want to make is fine.
    Mr. Hadley. I would have just a brief one on that. And I 
will see if Dr. Perry agrees with this. I think you can be 
informed by the budget, but not constrained by it, in the sense 
that what you can do is surface trades between capability and 
risk and cost, so that the administration and then the Congress 
can make some decisions about where they want to make the 
trade.
    So I think it is--you can't be, you know, pie in the sky. 
It can't be a straightjacket. I think it can be informed so you 
can identify these kinds of trades, and that is where decisions 
get made.
    Dr. Snyder. And I think that is probably as good a 
description of where we ought to think about what your final 
product is, yes. Thank you.
    Mr. Hadley. Yes, sir.
    The Chairman. I thank the gentleman.
    Mr. Hunter, please.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you. Starting off, I think that this 
discussion that Mr. Snyder just brought up is a really good 
one. And it has to do with the role of the DOD and the role of 
this Congress.
    I think the biggest problem that we see with having the 
budget constraint put on this lookout for the next two decades 
is that I think it is fine if we have that discussion in this 
committee, because that is what we are here for. We are here to 
have that discussion.
    We don't need the DOD telling us what we ought to spend. 
They are there to give us their projection for what we ought to 
spend, what we ought to buy, but it is within this room, I 
think, that we should discuss something when it comes to terms 
of how much we should spend, we should be given what the DOD 
thinks that we need, even if it is pie in the sky, that they 
might say we need a 3 million person active-duty military in 15 
years.
    And we then say, well, that is impossible, so how do we 
mitigate that and what do we spend on that? What should it be? 
And we kind of go on from there. We didn't do that this time.
    That is why I don't think that this budget constraint 
should be--like you said, Mr. Hadley, it should be informed, 
but it should not be--and my main question is, is that even 
possible? Can the DOD, which is an aspect of the 
administration, whatever one it is serving at that time, is it 
possible for them to be objective on themselves and maybe even 
make themselves look bad because the DOD and the OSD [Office of 
the Secretary of Defense] comes out and says, ``We need all of 
this, but the President is only putting in enough money for 
this much, and that will make us less safe in 20 years''?
    That is my first question. Is it even possible for the DOD 
to be objective on itself?
    Two, we talk about this 20-year plan being impossible 
because of all the different things that are able to pop up, 
different unconventional threats, conventional threats. I think 
that we can really classify it, though. We do know that China 
is going to have more ships. We know North Korea is going to 
have more nuclear weapons. We know Iran--if we stay on the same 
course we are on now--they are going to have nuclear weapons. 
We know all of these things.
    Russia is going to have more airplanes. China is going to 
have more airplanes. China is going to have more cruise 
missiles. We know that those things were going to increase at a 
certain production rate based on what we know of those 
countries now.
    So why can't we say, 20 years from now, here is what we 
see--here is the 60 percent of stuff that we know, and here is 
what we need for that, and here is the 40 percent of stuff that 
we don't know? You know, who knows what crazy country comes up, 
gets a nuke or dirty bomb or something? And that is obviously 
an off-the-shelf scenario. And it is going to be really hard 
for us to adjust to that.
    But we can adjust to 60 percent of things or 40 percent 
or--what is that percentage? What do you think--because there 
are certain things that we know--we have to have a Navy that is 
this big in the next 20 years to counter these other navies 
that will be this big? Because we do know that. And I think 
that this administration and that this QDR has been short on 
telling us those things, things that we can quantify very 
easily, and say, ``Here is what we need, and we are not going 
to let the budget constrain those things.''
    Dr. Perry. Mr. Hunter, I must say, as Secretary, I always 
felt constrained by the budget that Congress had appropriated 
for me and my best estimate of what they might appropriate in 
future years. That certainly influenced my actions and 
planning.
    But I also felt a responsibility to inform the Congress if 
I saw some threat looming in the future for which their budget 
did not adequately prepare me. And let me give you one example.
    If I believe, for example, that a new kind of a threat, a 
cyber threat was emerging a few years in the future, and that 
we will not--in our present budget, did not actively prepare 
for that, I would feel obliged to inform the Congress that this 
was a threat that was coming up and that the present budget did 
not adequately deal with that and propose additional funds be 
coming from them.
    That is just one example of a--it gets--it becomes much 
more difficult to do that when you are looking at potential 
threats 15, 20 years into the future. And using Steve Hadley's 
phrase there, I think in that case you might at least call out 
the nature of the threat and ask for a down payment, some 
initial thinking, some initial planning on what you might do to 
deal with that future threat.
    I can't give you much more concrete answer than that, I am 
sorry.
    Steve, do you want to add anything?
    Mr. Hadley. No, I think you have said it right. You look 
out 20 years. You know what you know. And you make decisions on 
that. There is going to be an area of uncertainty. You do the 
best you can. I think that is right.
    And I think you have asked the Department to do that, and I 
think we will have an opportunity to talk to the Department 
about that and to encourage them to have, if they have not done 
that in the QDR, encourage them to have a way where that can be 
done as an input to their own planning. And my experience is, 
if you ask them that, they will do it.
    The Chairman. I thank the gentleman.
    Mr. Taylor.
    Before I call on Mr. Taylor, how far along are you at this 
point regarding the Department of the Navy and the force 
structure of the ships? Have you addressed that at all?
    Mr. Hadley. We have not--we have not tried to generate 
alternative force structures. We are just not there.
    We understand that is clearly one of the things that is in 
the statutory language. There are some members of our panel who 
think that is going to be very hard, you know, for our group 
with a staff to do that.
    The Chairman. It is.
    Mr. Hadley. But that doesn't mean that we can't--I think--
--
    The Chairman. It is very important. And I hope you will 
take a look at that.
    Mr. Taylor.
    Mr. Taylor. Gentlemen, I thank both of you for being here 
today and for your prior service to the Nation. Now that you 
have had an opportunity to step back and not be quite so close 
to the problem, I am wondering if you--particularly when it 
comes to acquisition, if either one of you ever find yourself 
saying, ``Gee, I wish we could have done whatever''?
    If along those lines, what do you think we ought to be 
doing different? Because obviously what we are doing now, with 
almost every program being way over-budget and almost every 
program being late, obviously, what we are doing isn't right. 
So what would you do different, now that you have had the time 
to look back on it, and what would you recommend that we do 
different?
    Dr. Perry. Mr. Taylor, before I was--some years before I 
was Secretary of Defense, I was the under secretary for what is 
now called acquisition and technology and logistics. And I must 
say, during that time, I made no specific effort to try to 
reform the acquisition system. I just worked with it as best as 
I could. And in retrospect, looking back on that, I regretted 
not having put more time and effort on trying to reform the 
system.
    In between that time and the time I became Secretary, I 
actually worked on--with an independent commission, which was 
looking at acquisition, the so-called Packard Commission, and 
made a set of recommendations then--and then, when I became 
Secretary, tried to implement some of those recommendations.
    The principal one which--would make some difference on in 
the 1993-1994 time period was removing from the--from the 
project officers the absolute requirement to use military 
specifications, which I saw as increasing the cost and 
lengthening the time of the acquisition. And we made some 
modest improvement in that regard, but not enough.
    So--a man that I worked with in my independent studies on 
this, who is a young promising scientist named Ashton Carter, 
who by coincidence is now the Under Secretary of Defense for 
Acquisition and Technology and Logistics. So I think he is 
going into that job with the idea of making significant 
improvements in how we buy equipment. And I really look forward 
to seeing some substantial improvements coming from his tenure, 
some of which will be based on the studies both of us did 
together while we were out of government.
    Mr. Taylor. Secretary Perry, to that point, going back to 
your time in acquisition, I am amazed that we as a nation have 
consistently failed--when we pay for the development of a 
program, we have consistently failed to demand the technical 
data package that the taxpayers paid for, whether it is on the 
engine for the Joint Strike Fighter, whether it is the Littoral 
Combat Ship, fill in the blank, whatever the program is.
    It just amazes me that we don't own that after we paid to 
develop it. Did either of you give much thought during your 
tenure that that ought to be the case? And if there is a reason 
why we don't own these things, please tell me, because I think 
it ought to be our Nation--Nation's best interest to own those 
things and be able to take that package from a failing vendor 
to a better vendor, if the case may be.
    But if you have a downside to that, I would welcome your 
thoughts on it.
    Dr. Perry. When the item has been developed under 
government funds and procured under government funds, then I 
think we should have the data package that goes with it. But I 
want to qualify that by saying that I think we should be doing 
more acquisition of things not developed under government 
funds.
    More of our acquisitions should involve commercially 
developed components for our systems. And that is one way of 
reducing costs and improving schedule and systems.
    That will not always be possible until when it is not 
possible, and when it is a fully government-developed system, 
then I think we ought to have the data rights for it.
    Mr. Taylor. Mr. Hadley, I didn't mean to ignore you, but I 
am curious, particularly on the technical data packages, during 
your time in the DOD, did that discussion ever come up? And do 
you think that we--that is a mistake that we ought to be 
correcting now?
    Mr. Hadley. I am not a specialist in this. I think we need 
to look at it, and we will have our panel look at this. I 
reported to the Pentagon in September of 1972, working in an 
analysis group for the comptroller, and the first thing I was 
put on was to help look at acquisition reform.
    Acquisition reform seems to be the cause that we are always 
pursuing and never happens. And I think your big question is, 
how come, after 35 years, we don't do it better? And I don't 
have a good answer to that.
    Mr. Taylor. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, gentlemen, first of all, thank both of you and all the 
members of the panel. You are brilliant men who serve the 
country well, and we just thank you and appreciate your 
service.
    I have a concern that I would like to state more perhaps 
for you to be examining as you move through this process, but I 
would welcome any of your response down the road.
    The chairman mentioned earlier three things. He said, one, 
we are applying the rules backward. But he also said we are the 
most bipartisan committee and the most nonpartisan committee in 
Congress.
    And the reason that we can be bipartisan and nonpartisan is 
because, even if we are applying the rules backward, we knew 
what the rules were. The chairman let us know well before we 
came in here what those rules were going to be.
    We know it is a fair process. We know also who is going to 
ultimately vote on a piece of legislation that comes out of 
here. And we know, for every number of our staff on either 
side, we know who hires them, we know who they serve and who 
they represent.
    Process can sometimes matter. If you control the process, 
you can control the results. If it is a flawed process, it is a 
flawed result.
    I was particularly interested in Mr. Talent and Mr. 
Edelman's supplemental comments where it says, first of all, we 
have heard mentioned that it seems clear that the QDR was 
heavily informed by the current budget, rather than operating 
with an unconstrained look at the Nation's defense needs in the 
coming 20 years.
    But I was more intrigued by the statement that says this, 
``Based on what we have learned so far, it appears that force 
structure recommendations, scenarios and assumptions employed, 
risk levels and budgetary recommendations were generally 
predetermined for this QDR.'' If that is, in fact, the case, 
the assumptions, the war gaming, the strategies all were 
predetermined before we looked at the QDR, one of the areas 
that really bothers me is what we have just seen kind of 
exposed in the last week or so with the mentoring program and 
how that could have had an impact on the QDR. We don't know the 
answers to that because the Department of Defense won't give us 
all of those answers.
    But here is my big concern. When we have individuals 
working in the war gaming, the strategies, sitting some of the 
assumptions that may ultimately be worked into that QDR, who 
are, one, getting full retirement from their service as they 
should--up to $175,000 or so per year--but then we find out 
that they are also being hired by the Department of Defense, 
some of them being paid up to $281,000--at least that is the 
only thing we have seen disclosed for 6 months work--but then 
also that they are being paid millions of dollars by 
individuals who have a direct concern in the outcome of the 
QDR.
    And then we find out that, one, there is no conflict of 
interest statement that had to be filed; two, that they had no 
prohibition of divulging information they got out to the 
entities that they represented; and, three, that they could 
serve giving their input and their advice when they were being 
paid these huge sums of money for consulting purposes outside 
to private individuals.
    That is a major concern to me, especially when we find that 
there are at least some provisions in the QDR with such a 
dramatic change from what the previous QDR has stated.
    Now, the reason I state that for you is, I don't know what 
impact some of that has on the QDR, but it would frighten me to 
think that some of the staff people here were being paid three, 
four, five, six, seven, eight times more by some outside source 
to come in here and then give me advice on decisions that I was 
making.
    So I would ask you--now, I know Department of Defense has 
come out and changed this policy, I think just last week, but 
that doesn't mean it was changed with some of these assumptions 
that could have been worked into the QDR.
    So I would just ask you, if you could, as you are looking 
at this process, if you could, one, find out if any of that 
could have had an impact, but, secondly, how we can have more 
credibility in the process by at least getting answers to, 
where could that have had impacts in that process? Right now, 
there is a lot of unknowns in those areas.
    So with that, I leave it for any comments that you have 
and--from me down the road on that.
    And, Mr. Chairman, I yield back the balance of my time on 
it.
    The Chairman. I thank the gentleman.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being with us today. Today 
seems to be a day of thoughtful discussion, as we as members 
express some of our concerns to you and directions that we hope 
you follow as you go back to your task and recognize--and you 
haven't been about the task long, but we certainly appreciate 
this. And, of course, the tone of the discussions already have 
shown how important your work is going to be.
    I would like to follow just a little bit of what the 
chairman said earlier, in terms of the strategy that we have 
within the knowledge base of our leadership and our troops, so 
that we can have the flexibility and be able to respond.
    Yesterday, we had a hearing about our nuclear posture 
report, and we talked about that, in certain cases, we have the 
ability to respond not with a nuclear strike, but with other 
military means, if we are so attacked. If you have troops in 
Iraq and Afghanistan, all of a sudden you have to come back 
with a full-spectrum, as the chairman said, conventional 
attack. We may not have those 3 to 4 weeks to prepare our 
troops, but, also, to make sure that we have the leadership 
that is trained so that they can at least have the strategies 
in place of how to use full-spectrum conventional response.
    Because if we are consistently going back to Iraq, 
Afghanistan, as much as we have been, has there been proper 
training for these other scenarios that could play out? That is 
the concern I have.
    And I want to carry it one step further is to--especially 
to our National Guard and Reserves. Are they getting the full 
training when they are mostly being used right now, obviously, 
in the situations in Iraq and Afghanistan--are they being 
prepared for conventional warfare, as we might know it? And 
will they have the equipment to prepare for this?
    At a separate hearing, we talked about lift capacity. When 
we had all of the planes being used for the Haiti operation, I 
asked the question, do we have sufficient lift capacity? And I 
was told that we do, only to 2 weeks ago get a call from the 
commanding general, North Carolina National Guard, saying the 
Air Force was going to be taking two of its C-130s.
    And I think it is like 10 C-130s from Air National Guard 
all over. They needed that for their lift capacity, where not 
too long ago, I was told we had plenty of lift capacity.
    So I do have concerns, and this is not really a question, 
and just a statement I have concern to make sure we have the 
people that have the strategies that can do the training, but 
also to make sure that we carry that down to our Guard and 
Reserves, that they have the strategies and the equipment for 
the training.
    Thank you, sir, and I yield back, unless you all have 
comments on that.
    The Chairman. Thank you.
    Any comment on that?
    Dr. Perry. Only that I share the view that the National 
Guard and the Reserves are very important components of our 
all-volunteer force and that we will specifically in our force 
structure and personnel subpanel look at that question.
    The Chairman. Thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, gentlemen, thank you so much and all the members of 
the panel. It is a very impressive group of people. And I would 
like to make a few comments, and then I am going to close.
    I don't think there has ever been a time that this country 
has needed a panel such as yours to be very honest with the 
American people. I look at you, Dr. Perry, when you were with 
the administration--I can't remember what the debt and the 
deficit was at that time. I know when Mr. Hadley came with the 
first Bush administration, Mr. Bush inherited a surplus.
    And here we are today, and that is why your charge is so 
critical. Here we are today with information out in the public 
that possibly by 2020, which is really less than 10 years now, 
that 90 cents out of every dollar will have to go to Social 
Security, Medicare, and veterans benefits. So that will leave 
10 cents out of a dollar to go to other programs, including the 
military.
    This is not a criticism. I have been here 15 years. It is 
more of an observation. This is one of the best committees I 
have ever been, whether it was Duncan Hunter chairman, now Ike 
Skelton. But I see the politics that is played within the 
Congress, not this committee--I want to make that clear--but 
once you start getting into the budget process, and somebody 
wants an airship here, somebody wants a boat here, and all of a 
sudden, here we are trying to deal with a country that is 
crumbling.
    We owe the Chinese over $800 billion. Dr. Perry, you 
mentioned the high cost of health care. There is a book that I 
would recommend people to read if they had time to read it. It 
is ``The Three Trillion Dollar War'' by Joe Stiglitz, well-
known economist.
    Are we going to be in a position to take care of our needs 
militarily and take care of our veterans? I know you are not 
going to be speaking primarily to the veterans, but it all is 
correlated. If you are spending $3 trillion to take care of our 
wounded from Afghanistan and Iraq and you didn't factor that 
in, you don't factor in the 10 years down the road when we are 
only going to have 10 cents out of a dollar to pay for federal 
programs, including the military.
    We need your honest work to this committee, in my humble 
opinion. I won't be here 10 years from now. I might not even be 
here 2 years from now. But the point is that we don't have the 
luxury of playing games anymore in this country, and 
particularly as it relates to our military, because we do need 
to have a strong military.
    But I don't think we can any longer take care of the world. 
I don't think we can build empires. I really don't. If they 
come after us, let's go after them and bomb them and get them 
out. Let's do whatever we have to do.
    But, please, really, I have heard this from other 
colleagues--and I am going to stop in just a moment--please 
realize that what you are going to do this year probably has 
more meaning than ever before because of the shape of our 
country.
    I was over at Walter Reed Bethesda [Medical Center] with 
the family from Mississippi who brought their dog up to visit. 
We saw three Marines in Bethesda, three Marines, and both legs 
are shot off. I held the mother of a 19-year-old Marine who 
lost both legs, and all I can say is, this country better be--
excuse me--better be sure of what we are going to be doing in 
the future.
    Your work is so critical to the success of our military, 
but the success of this Nation. If you have any comments, 
please. If you don't, I just thank you for listening to me.
    Dr. Perry. I thank you for your comments.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Dr. Perry, in your testimony, in your joint testimony, you 
discussed some of the work that you will be doing, and the 
first--one of the first points the panel makes is that you will 
look at the nature of 21st century conflict. So a question for 
you, Dr. Perry, on this point.
    Now, JFCOM [Joint Forces Command] recently completed their 
report on a joint operating environment, looking out 25 years, 
looking at a variety of trends in the world, and what does that 
mean for the use of our military. And what I see you all will 
do is essentially take a look at some of the same issues and 
then review trends, symmetries, concept of operations that 
characterize our military balance with potential adversaries.
    It seems to me, is there a space in between that you might 
need to be looking at, as well? You look at the environment, 
but you look at these trends. I know you look at resource 
requirements, as well. You will say you will look at resource 
requirements.
    Are you going to look at trends in the capabilities, 
though, that we will need in order to address those trends? 
Because it seems that resources would be--kinds of things that 
we need to do versus looking at trends in the world and then 
jumping to, ``Here are the things we need to build.''
    So is there--are you considering that? Or am I missing 
something? Am I reading too much into the testimony? Am I 
reading too little into the testimony?
    Mr. Hadley. I think one of the things that the Department 
has done and we will do is look at, are there trends in our 
capabilities that put us in a better position to deal with 
these threats 20 years out?
    Mr. Larsen. Right.
    Mr. Hadley. And are we making sufficient investment in 
those capabilities to bring them online? The investment this 
country has made in ballistic missile defense, for example, has 
put us in a much better position than we were 20 years ago, so 
I think we will clearly be looking at those things as part of 
our work.
    Mr. Larsen. I guess what I am just getting at is that we 
tend to--we tend to look at things we ought to be building 
instead of the things we ought to be doing and then let that 
drive what we ought to build. But we would like to--
unfortunately, I think to our detriment, look at--we like to 
count up things as opposed to count things we ought to do and 
then decide what things we ought to build to do that.
    Mr. Hadley. Right. And I thought, actually, one of the 
things I liked about the QDR is they talked about 
capabilities--i.e., things we ought to have and do, in terms of 
military capabilities--and then capacity, which gets into the 
number issue.
    Mr. Larsen. Right.
    Mr. Hadley. I think breaking those out is useful. They 
focused on capabilities and made some down payments on the 
capabilities we need 20 years out.
    Mr. Larsen. Right.
    Mr. Hadley. We need to assess whether that is coming along 
fast enough. But then they also need to look at the capacity 
issue, because there is a numbers issue----
    Mr. Larsen. Right, there is.
    Mr. Hadley [continuing]. That needs to be addressed. I 
think we will look at both.
    Mr. Larsen. Second point, on the whole-of-government 
capabilities--and this--I am not sure--I am not sure how far 
the Clinton administration got into this and the NSC [National 
Security Council], but certainly when you were at the NSC in 
the Bush administration, we were all kind of forced to look at 
whole-of-government capabilities with Iraq and then--well, 
Afghanistan, Iraq, and then back to Afghanistan again.
    It is something we are trying to--we are grappling with 
here on the Armed Services Committee when we look at 1206 and 
1207 and 1208 sections of the defense authorization bill and 
then looking at this concept of pooled resources that has been 
floating around for the last several months.
    Are you at all considering what that might look like, how 
you--I don't know--look at whole-of-government capabilities? 
And can you come up with a different term, as well, that is 
more accurate--accurate with what we are trying to do? Is this 
a trend in capability that you will be looking at more in 
depth? And can we expect to see some feedback on that?
    Dr. Perry. Yes, we have a whole--a panel dedicated to 
looking at that issue. We think it is very important. And it is 
not just the question of how you organize it. It is a question 
of how you fund to do it.
    Mr. Larsen. Right.
    Dr. Perry. And some of the funding is not going to be 
Defense Department funding. And so how do we integrate that?
    Mr. Larsen. That is--yes, right.
    Dr. Perry. And how does the Congress integrate--it is 
various committees working that--it is a very difficult issue.
    Mr. Larsen. Right. I would suggest to you it won't even be 
just Defense and the State Department, which is how we tend to 
think about it around here, as well. In a lot of ways, it 
really goes beyond those two departments.
    Mr. Hadley. It does, but I would hope that we would--and 
the Congress in general, and perhaps this committee in 
particular, would take the opportunity of the QDDR process, the 
Quadrennial--I guess they call it--Diplomacy and Development 
Review the State Department is doing, which, as I understand 
it, is going to address some of these issues.
    Mr. Larsen. Yes, thanks a lot.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett, please.
    Mr. Bartlett. Thank you both for your service and your 
testimony.
    You know, when we fight today, we are accustomed to having 
a carrier task force just offshore. We are accustomed to having 
unchallenged airways and sea lanes to deliver the supplies we 
need. We are accustomed to having total air superiority.
    The reality is that, if we were to go to war with a peer--
and there will be a peer in the future--we will be in a very 
different world. For instance, the Chinese anti-ship missile 
means that our carrier task force can't come within 1,200 miles 
of where it is sited. If it is sited on a ship, that means we 
can't come within 1,200 miles of anywhere in the whole world.
    The new surface-to-air missiles pretty much deny access--
the best of those deny access to our cargo planes. And the 
Russians will sell you--and they are now--will sell you a 100-
knot torpedo. They are now developing a 200-knot torpedo. That 
means the sea lanes would be very iffy, if you were against a 
peer and if the peer had that capability.
    The Russians have just launched a new plane, the PAK FA 
[Perspektivny aviatsionny kompleks frontovoy aviatsii, 
literally ``Future Frontline Aircraft System''], I think they 
call it. They developed it to best our 22 [F-22]. We are now 
not building the 22. Secretary Rove sat in my office not very 
long ago and told me that the best combination of fighter 
aircraft and pilot in the world was not an American plane and 
an American pilot. It was the--it was the Russian plane at that 
time and a pilot from another country, which I won't--which I 
won't mention.
    I see this review as business as usual. I don't see any 
reflections that fighting a peer in the future, that we need to 
have a very different approach than this. And it is also very 
clear to me that we cannot continue to fight the kind of wars 
we are fighting today the way we are fighting. They are hugely 
asymmetric wars. It cost them very little to put these IEDs 
out, and we spent $40 billion on one asset alone. That is MRAPs 
[Mine Resistant Ambush Protected Vehicle].
    We cannot continue to fight these wars. Our enemy has the 
capability of an endless succession of these wars, which will 
eventually bleed us dry if we choose to engage ourselves in 
these wars this way.
    Am I wrong to have these concerns about a potential peer in 
the future? And these are not to-be-developed capabilities. 
This anti-ship missile is real today. It is a real game-
changer. The best surface-to-air missiles would deny access to 
almost all of our cargo planes. And the 200-knot torpedo--the 
100-knot torpedo is enough, thank you--means that the sea lanes 
would be really, really challenged. And we will not have air 
superiority if the--if our enemy has the equivalent of the 
Russian PAK FA plane.
    And can we really continue to fight these hugely asymmetric 
wars? It must be at, what, at least 1,000 to 1 in dollar cost 
for these wars? If we are going to continue fighting them, 
don't we have to fight them another way? Am I wrong to have 
these concerns?
    Dr. Perry. Two comments, Mr. Bartlett. First of all, I 
believe that the actions--the capability we now have in air 
superiority and the actions we have taken to try to sustain 
that will be successful. But on your issue of asymmetric 
warfare, I do not think we have an adequate answer at this 
point to the asymmetric threats that we are faced with.
    And that, in my judgment, is an area in which we should be 
paying much more attention to, and it certainly will be part of 
our consideration in our review.
    Mr. Bartlett. Steve.
    Mr. Hadley. I agree with that. It is an area of concern. It 
needs to be addressed as part of our review. And I think it 
needs to be addressed more intensively by the Department.
    Mr. Bartlett. We are following Osama bin Laden's playbook. 
This is exactly what he wanted us to do, was to engage in this 
kind of asymmetric war, and he made the statement that, if they 
would continue this, they would ultimately bleed us dry. Why do 
we choose to follow his playbook in the way we fight these 
wars?
    Mr. Hadley. I guess the one thing I would say, that I think 
that in the experience we have had in Iraq in the last couple 
years and in--as those are being applied in Afghanistan, we 
have made progress in dealing with these asymmetric threats.
    Mr. Bartlett. Well, we have, indeed, but at huge, huge 
cost. We are doing exactly what he said we would do, and that 
is spend huge amounts of money. They would eventually bleed us 
dry, which is what they are doing, aren't they?
    Mr. Hadley. Well, you know, there is an enormous advantage 
in the asymmetric threat. It is cheaper. It is more 
distributed. And the cost to protect our people from it can be 
very high.
    But I think the truth is, we have made considerable success 
in the war on terror generally and in Afghanistan and Iraq, 
notwithstanding the challenge.
    Mr. Bartlett. Thank you.
    The Chairman. Thank the gentleman from Maryland.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    Had a couple of questions and probably not enough time to 
ask them all. The first is an overarching concern that I have 
particularly sensed in the last couple of years on this 
committee, and I think it relates to the Quadrennial Defense 
Review, and that is a lack of--or complete no transparency 
between the Pentagon, Secretary of Defense, and Congress, and 
particularly this committee.
    My concern is this. We are all people that work in the 
political world. We know there is a certain amount of money we 
are going to spend on defense. It seems to me that the Pentagon 
should say to us, okay, you guys are the ones who are giving us 
the money. And for this much money, we can buy you this much 
security.
    But if you reduce the money to this percent of GDP [gross 
domestic product] or however you want to say it with this size 
budget, there are areas where we are taking risks. And these 
are the danger points and where they occur time-wise, and you 
have to assess Congress whether or not those risks are worth 
taking, given the amount of money that we have to spend. That 
is the way I think the thing should work.
    In fact, what it seems like we are being told everything is 
always okay, no problem, and we continue to reduce the amount 
of money that we are spending. And I don't think that we are 
doing that with an adequate assessment of, really, what are the 
dangers and where are the places where we have made some 
assumptions that we need to be aware of?
    And, of course, part of that is, is--you know, when you do 
the Quadrennial Defense Review, the theory is, is that you just 
basically do that based on what the need is, not on what the 
finances will carry. And yet our continuous concern is, is that 
those things are written for a certain size budget.
    And so I am concerned--and sometimes that occurs in this 
committee--I am asking questions that are very obvious, 
straightforward questions, and I just don't get answers. I can 
take it to a top-secret security, and I still--we are just 
getting blown off. We are not getting straight answers to very 
obvious, straightforward kinds of questions.
    And so that is my concern. And I hope that you will help 
us, and that is part of the reason why we have tried to 
commission you to take a look at this and to say independently, 
what are our risks?
    I think the previous questioner, Roscoe, has the same kind 
of concern, because he is on Airpower now, and I am on 
Seapower, and we see the Sunburn missile and we see ballistic 
missiles that we can't stop, and we see increasing stealth and 
increasing distance on the Chinese diesel boats, the denied 
access and all.
    And we are saying to ourselves, wait a minute, we don't 
have a product that stops this kind of threat. What is our 
level of vulnerability? If you could respond to that. I know it 
is a very general question, but if you could respond to that.
    Dr. Perry. Only to say that that is the nature of this, the 
study we are doing, trying to answer the kind of questions that 
you are asking. I don't believe we will be fully successful, 
but that is what we are trying--that is what we will be trying 
to do.
    Steve, do you want to add to that?
    Mr. Akin. I think, also, if you answer in terms of what is 
your risk at one time period in history, too, you know, because 
the President said, well, we are going to cancel missile 
defense in Poland and the Czech Republic, and we are going to 
replace it with the missile defense that comes off a destroyer, 
so we are going to replace a 20-ton missile--anti-missile 
missile with a two-ton.
    Well, the trouble is, we can't really stop a ballistic 
missile using what we have now on our Aegis missile system. 
Maybe we are going to build that missile in a few years, but we 
don't have it right now.
    And so there is a window of vulnerability, and that is our 
question is, where are those? And time-wise, where are they, 
relative to what our planning is?
    The other question I had was--and that is a national 
security strategy, we are supposed to--the administration is 
supposed to produce a national security strategy. And then the 
QDR is supposed to connect in with that. Well, of course, they 
haven't done it.
    So our question is, is that a big problem, as well?
    Mr. Hadley. Obviously, you would have liked to have started 
with a national security strategy. I think the QDR did as best 
as they could taking the guidance they had from the President 
and what was from the last administration, but it is not 
perfect. It is not perfect. And I think they acknowledge that.
    Mr. Akin. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman from Missouri.
    We have no more questioners. Mr. McKeon?
    With that, gentlemen, we thank you very much for your 
testimony and for the work you have done. I think by now you 
have a better understanding or better thought about our 
concerns and some of the areas in which you should delve in 
your investigation and your studies.
    It is a monumental task that you have. And we look forward 
to your thoughts. And in the meantime, we just want you to know 
we appreciate it.
    [Whereupon, at 11:48 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 15, 2010

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2010

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 15, 2010

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 15, 2010

=======================================================================


                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. With the increase in violence along our Southern border, 
do you feel the QDR did enough to address the issue, and was it forward 
looking enough in terms of potential resources and personnel costs?
    Dr. Perry and Mr. Hadley. While this QDR gives priority to winning 
the current conflicts in Afghanistan and Iraq, it states that:

        The United States will continue to work toward a secure and 
        democratic Western Hemisphere by developing regional defense 
        partnerships that address domestic and transnational threats 
        such as narcoterrorist organizations, illicit trafficking, and 
        social unrest. We will continue to work closely with Mexico to 
        improve our cooperative approach to border security, enhance 
        defense capacity for coordinated operations, and address other 
        issues. (page 61)

    The QDR Independent Panel understands your concerns regarding the 
increase in violence along the Southern border of the United States and 
the implications for the Department of Defense. The QDR is quite clear 
about the Department of Defense's intention to work closely with 
Mexican authorities to improve cooperation on issues such as border 
security and enhancing capacities for combined operations. While the 
report does mention this matter, it is one among many that comprise the 
many national security responsibilities of the Department. The Panel 
will review the totality of these responsibilities as part of its 
analysis.
    Mr. Ortiz. Looking into the part NORTHCOM will play in addressing 
this violence, do you feel that the QDR adequately dealt with the role 
of NORTHCOM in response to current and future border violence?
    Dr. Perry and Mr. Hadley. As you know, the ``United States Northern 
Command conducts operations to deter, prevent, and defeat threats and 
aggression aimed at the United States, its territories and interests 
within assigned areas of responsibility; as directed by the President 
or Secretary of Defense, [it] provides military assistance to civil 
authorities, including consequence management operations.''
    In accordance with Section 202 of Title 6, U.S. Code, the 
Department of Homeland Security is responsible for ``securing the 
borders, territorial waters, ports, terminals, waterways, and air, 
land, and sea transportation systems of the United States'' and 
``preventing the entry of terrorists and the instruments of terrorism 
into the United States.'' DoD's role in the execution of this 
responsibility, as noted earlier, is to provide support to DHS, when 
requested, appropriate, lawful, and approved by the President or the 
Secretary of Defense.
    The QDR Independent Panel's work is ongoing and to the fullest 
extent possible, the ``Whole of Government'' Capabilities Sub-panel 
will attempt to examine the role of NORTHCOM in response to current and 
future border violence.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Is it your understanding that the QDR staff conducted 
the 2010 review with the understanding that the Review's 
recommendations must remain under fixed top line and that no increase 
in personnel end strength were allowed? If that was the case, do you 
consider it possible to conduct an objective assessment of the needs of 
our armed forces with such limits in place?
    Dr. Perry and Mr. Hadley. As Secretary of Defense, Robert Gates, 
has noted in the Preface of the QDR: the QDR ``places the current 
conflicts at the top of our budgeting, policy, and program priorities, 
thus ensuring that those fighting America's wars and their families--on 
the battlefield, in the hospital, or on the home front--receive the 
support they need and deserve.''
    Furthermore, Secretary Gates states:

        The FY 2010 defense budget represented a down payment on re-
        balancing the department's priorities in keeping with the 
        lessons learned and capabilities gained from the wars in Iraq 
        and Afghanistan. Those shifts are continued in the FY 2011 
        budget and institutionalized in this QDR and out-year budget 
        plan. (page i)

    The Independent Panel intends to closely examine the issue of 
whether the QDR is an adequate vehicle for a strategic document that 
looks ahead 20 years, and is informed by, but not constrained by the 
budget.
    Mr. Franks. A quick review of a number of the major acquisition 
programs across the services indicates that we are not now, and haven't 
for many years, been funding modernization at an adequate level. Do you 
have any preliminary views on this subject at this point?
    Dr. Perry and Mr. Hadley. The QDR Independent Panel does not have 
preliminary views on the adequate level for modernization funding; an 
assessment of modernization rests on assessments of requirements and 
necessary forces structures to meet our future security needs. We have 
established the Future of 21st Century Conflict and the Acquisition and 
Contracting Sub-panels which, along with the Force Structure and 
Personnel Sub-Panel, will examine this issue to fullest the extent 
possible.
    Mr. Franks. Do you intend to request a meeting with the Joint 
Chiefs to learn their views directly on the adequacy or inadequacy of 
the top line funding profile in the Obama administration's Future Years 
Defense Plan?
    Dr. Perry and Mr. Hadley. The QDR Independent Panel intends to meet 
with the Joint Chiefs of Staff to receive their input on a wide variety 
of issues, including the Obama administration's Future Years Defense 
Plan.
    Mr. Franks. We have been told by the QDR staff that they conducted 
the Review with the understanding that the defense top line was fixed 
and that there could be no increase in service end strength. Is it 
possible to undertake such a strategic, long-term assessment with those 
variables fixed?
    Dr. Perry and Mr. Hadley. As Secretary of Defense, Robert Gates, 
has noted in the Preface of the QDR: the QDR ``places the current 
conflicts at the top of our budgeting, policy, and program priorities, 
thus ensuring that those fighting America's wars and their families--on 
the battlefield, in the hospital, or on the home front--receive the 
support they need and deserve.''
    Furthermore, Secretary Gates states:

        The FY 2010 defense budget represented a down payment on re-
        balancing the department's priorities in keeping with the 
        lessons learned and capabilities gained from the wars in Iraq 
        and Afghanistan. Those shifts are continued in the FY 2011 
        budget and institutionalized in this QDR and out-year budget 
        plan. (page i)

    The Independent Panel intends to closely examine the issue of 
whether the QDR is an adequate vehicle for a strategic document that 
looks ahead 20 years, and is informed by, but not constrained by the 
budget.
    Mr. Franks. The 2010 QDR is nearly silent on the rapid expansion 
and modernization of China's naval power. Is it possible to conduct a 
strategic review of American military requirements and not address, in 
a sober manner, the growth of China's military power? What are your 
views?
    Dr. Perry and Mr. Hadley. The QDR states that:

        China's growing presence and influence in regional and global 
        economic security affairs is one of the most consequential 
        aspects of the evolving strategic landscape in the Asia-Pacific 
        region and globally. In particular, China's military has begun 
        to develop new roles, missions, and capabilities in support of 
        its growing regional and global interests, which could enable 
        it to play a more substantial and constructive role in 
        international affairs. (page 60)

    However, the QDR continues:

        Lack of transparency and the nature of China's military 
        development and decision-making process raise legitimate 
        questions about its future conduct and intentions within Asia 
        and beyond. Our relationship with China must therefore be 
        multidimensional and undergirded by a process of enhancing 
        confidence and reducing mistrust in a manner that reinforces 
        mutual interests. (page 60)

    The QDR Independent Panel's work is ongoing, but it intends to 
closely examine the future of the relationship between the United 
States and China and the implications for the Department of Defense.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. In the absence of National Security Strategy, what 
will the Independent Panel use for policy guidance and direction for 
its assessment of the QDR? Does the fact that the QDR was completed 
without an updated National Security Strategy raise any concerns for 
the Independent panel?
    Dr. Perry and Mr. Hadley. The Independent Panel recognizes that, 
ideally, the National Security Strategy would come before the QDR. 
Given the constraints the Administration was under; however, the 
Department of Defense has produced a well-researched and meaningful 
QDR.
    The Independent Panel has established a ``QDR and Beyond'' Sub-
panel to examine the QDR process. Since the QDR is now in its fourth 
iteration, the Panel plans to assess the entire QDR process. The Panel 
will evaluate Congressional direction and Department implementation, 
the realistic timelines for developing future QDRs, and appropriate 
integration with other related studies including the National Security 
Strategy (NSS), Quadrennial Homeland Security Review (QHSR), 
Quadrennial Diplomacy and Development Review (QDDR), the Nuclear 
Posture Review (NPR) and the Ballistic Missile Defense Review. We also 
note that the QDR states that it was instructed to use as a strategic 
underpinning the 2008 National Defense Strategy, which laid out 
strategic objectives for the Department.
    Mr. Lamborn. In your testimony you indicate the panel will address 
``Whole of Government'' Capabilities, to include the increasing role of 
the civilian DoD workforce and the use of contractors in conflict 
zones. The Administration has expressed significant goals for 
insourcing inherently governmental and closely associated inherently 
governmental functions, yet no clear definitions or criteria for the 
functions have been published. Does the panel plan to make 
recommendations regarding the criteria, definitional guidance and/or 
specific functions for insourcing as part of its efforts?
    Dr. Perry and Mr. Hadley. The work of the ``Whole of Government'' 
Capabilities Sub-panel is ongoing, however, the goal of the Sub-panel 
will be to examine, in addition to other issues.
    Mr. Lamborn. There are several significant force structure concerns 
within the QDR, including fighter gaps in the Air Force and Navy. Has 
your Panel identified the capability gaps within the force structure 
concept outlined in the QDR? What force structure risk areas is your 
panel looking at and do you have any preliminary findings?
    Dr. Perry and Mr. Hadley. The Independent panel does not have any 
preliminary findings regarding capability gaps as this question assumes 
within the force structure concept outlined in the QDR. The Force 
Structure and Personnel Sub-panel is currently examining capability 
gaps to the fullest extent possible.

                                  <all>

</pre></body></html>
